<html>
<title> - CONTINUING INVESTIGATION INTO THE U.S. ATTORNEYS CONTROVERSY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                   CONTINUING INVESTIGATION INTO THE 
                       U.S. ATTORNEYS CONTROVERSY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   COMMERCIAL AND ADMINISTRATIVE LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2007

                               __________

                           Serial No. 110-10

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
35-115                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

           Subcommittee on Commercial and Administrative Law

                LINDA T. SANCHEZ, California, Chairwoman

JOHN CONYERS, Jr., Michigan          CHRIS CANNON, Utah
HANK JOHNSON, Georgia                JIM JORDAN, Ohio
ZOE LOFGREN, California              RIC KELLER, Florida
WILLIAM D. DELAHUNT, Massachusetts   TOM FEENEY, Florida
MELVIN L. WATT, North Carolina       TRENT FRANKS, Arizona
STEVE COHEN, Tennessee

                     Michone Johnson, Chief Counsel

                    Daniel Flores, Minority Counsel


                            C O N T E N T S

                              ----------                              

                              MAY 3, 2007

                           OPENING STATEMENT

                                                                   Page
The Honorable Linda T. Sanchez, a Representative in Congress from 
  the State of California, and Chairwoman, Subcommittee on 
  Commercial and Administrative Law..............................     1
The Honorable Chris Cannon, a Representative in Congress from the 
  State of Utah, and Ranking Member, Subcommittee on Commercial 
  and Administrative Law.........................................     3
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, Chairman, Committee on the 
  Judiciary, and Member, Subcommittee on Commercial and 
  Administrative Law.............................................     5

                               WITNESSES

Mr. James B. Comey, former Deputy Attorney General, Department of 
  Justice
  Oral Testimony.................................................     7

                                APPENDIX
               Material Submitted for the Hearing Record

Response to Post-Hearing Questions from James B. Comey, former 
  Deputy Attorney General, Department of Justice.................    44


                   CONTINUING INVESTIGATION INTO THE 
                       U.S. ATTORNEYS CONTROVERSY

                              ----------                              


                         THURSDAY, MAY 3, 2007

                  House of Representatives,
                         Subcommittee on Commercial
                            and Administrative Law,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:36 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable Linda 
Sanchez (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Sanchez, Conyers, Johnson, 
Lofgren, Watt, Cohen, Ellison, Cannon, Jordan, and Feeney.
    Staff present: Eric Tamarkin, Majority Counsel; and Daniel 
Flores, Minority Counsel.
    Ms. Sanchez. This hearing of the Committee on the 
Judiciary, Subcommittee on Commercial and Administrative Law, 
will come to order.
    I will recognize myself for a short statement.
    It has been nearly 5 months since an unprecedented number 
of U.S. attorneys were fired midterm, without cause and without 
explanation. Five months have passed since December 7, 2006, 
and we are still trying to understand why these talented and 
experienced U.S. attorneys were forced to resign.
    As the facts unfold, we are left with more questions than 
answers. What we have learned so far is troubling and warrants 
further inquiry.
    We have learned that the Bush administration exploited the 
change in interim appointment limits of U.S. attorneys by 
purging high-performing U.S. attorneys.
    When the fired U.S. attorneys received notification that 
they would be fired, several were in the midst of high-profile 
public corruption investigations involving Republican 
officials.
    We have learned that U.S. attorneys were rated on a removal 
list based in large part on whether they were loyal Bushies.
    However, after numerous interviews with Justice Department 
officials and reviewing of department documents, it is still 
unclear who within the Administration was responsible for 
placing those particular U.S. attorneys on the list.
    The Justice Department testified before this Subcommittee 
that the U.S. attorneys were removed for ``performance-related 
reasons.''
    However, internal department evaluations, letters of 
commendation from department officials and numerous awards from 
outside groups clearly contradict that testimony. In fact, 
mounting evidence suggests that reasons set forth by the 
department are misleading, and that the U.S. attorneys were 
improperly dismissed.
    Although the president has a right to dismiss U.S. 
attorneys, he does not have the right to remove them in order 
to interfere with ongoing investigations, or to retaliate 
against a U.S. attorney for not prosecuting cases that would 
benefit a particular political party. Politics should not be 
injected into decisions to bring the full force of the law 
against an individual.
    If even a single U.S. attorney lost his or her job either 
for prosecuting Republicans or for refusing to prosecute 
Democrats, this would represent a serious threat to the very 
notions of fairness on which our justice system rests.
    In order to restore the American people's faith in the 
administration of justice, we must know with absolute certainty 
that those who are charged with crimes are charged based on the 
evidence, and not because of political consideration.
    Despite our attempts to expedite the Judiciary Committee's 
investigation, we have been barred from learning whether these 
U.S. attorneys were fired for an improper purpose.
    While we appreciate the Justice Department's general 
cooperation with our investigation, the department has withheld 
materials that are clearly related to the mass firings and were 
requested by the Committee, including unredacted documents with 
key information.
    Chairman Conyers has issued a subpoena for their production 
and the deadline for their production has passed.
    Although the president has publicly pledged to get to the 
truth of the matter, the White House continues to be an 
obstacle in concluding this investigation.
    On March 9th, Chairman Conyers and I sent a letter to White 
House Counsel Fred Fielding requesting testimony and documents 
from White House officials with direct knowledge of the facts 
and circumstances in the U.S. attorneys controversy.
    Despite Chairman Conyers' repeated attempts to reach an 
agreement on the terms under which White House testimony and 
documents will be shared with the Committee, the White House 
has refused negotiation.
    We continue to be hopeful that the White House will 
cooperate with this investigation. However, after nearly 2 
months of stonewalling, we still have not received any 
information from the White House.
    Such tactics do not inspire public confidence in the 
Administration but serve only to increase public doubt in the 
Administration's integrity and commitment to equal justice 
under the law.
    Our investigation has also revealed that Administration 
officials discussed firing U.S. attorneys while using 
Republican National Committee e-mail accounts. As a result, 
this Committee has also requested that the Republican National 
Committee produce copies of e-mails from White House officials 
concerning the issue.
    Instead of allowing the RNC to immediately comply with the 
request, the White House has slowed the production of documents 
by asserting a flimsy argument that they must review all of the 
documents for claims of executive privilege.
    It is my hope that this morning's testimony from James 
Comey, the former Deputy Attorney General, will bring us one 
step closer to resolving this matter.
    I want to thank Mr. Comey for his gracious cooperation with 
our subpoena, and make clear that he is participating in this 
hearing under compulsion.
    I would now like to recognize my colleague, Mr. Cannon, the 
distinguished Ranking Member of the Subcommittee, for his 
opening remarks.
    Mr. Cannon. I thank the Chairlady.
    I would like to point out that from the beginning of this, 
we have heard the word ``corruption'' bandied about. We now 
have thousands and thousands of pages of documents, many 
interviews of people, and so far this seems to be a fishing 
expedition that has come up dry.
    I know the minority is--or the majority, unfortunately--is 
wishing or casting its nets and hoping to catch someone from 
the White House. But thus far, despite the complaints, there 
has been nothing, at least that I can see out there, that 
warrants the continued reference to stonewalling and corruption 
and other, I think, extreme statements by the majority.
    Nevertheless, the minority remains committed to ensuring 
that the material facts come out in this matter, the sooner the 
better.
    Some witnesses whom Committee staff has interviewed have 
suggested that Jim Comey was informed about the review of U.S. 
attorneys while he was deputy attorney general, knew of 
information pertaining to some of the U.S. attorneys whose 
resignations were ultimately requested or was consulted about 
some of those U.S. attorneys.
    We welcome Mr. Comey's testimony so that he can answer our 
questions and add to the record of this investigation.
    We are not sure that Mr. Comey has all of the information 
that pertain to some of our questions.
    For example, we are not sure whether Mr. Comey knows that 
David Margolis, the top career official at the Department of 
Justice, indicated in an interview earlier this week that the 
idea of reviewing U.S. attorneys was a good one; that, based on 
his knowledge of the relevant information, he generally 
endorses the grounds offered for requesting the resignations; 
and that he would like for the department to be able to conduct 
this kind of review again, and hopes that it can, but fears the 
current clamor may chill future efforts. Heavy on the clamor.
    We also are not sure if Mr. Comey has a fair sense of the 
picture emerging from all the interviews, testimony and 
document reviewed thus far. We hope that his ability to offer 
testimony has not been limited or tainted by selective leaks of 
information from the private interviews that have occurred.
    Those leaks have generated the impression in the major 
media that we believe runs counter to the thrust of the 
information we have collected and reviewed to date.
    Nevertheless, we hope that this will be an informative 
hearing. And we do know that Mr. Comey has been identified as a 
witness who may have material information concerning the events 
that we are examining. Therefore, we welcome him today.
    In private discussions, I have indicated my admiration for 
Mr. Comey, who has performed a wonderful service for America.
    I hope that we can find out what he knows and do it very 
quickly, so that he can get back to his important work and this 
Committee can as well.
    Thank you.
    Mr. Watt. Would the gentleman yield, just a second, before 
he yields back?
    Mr. Cannon. Certainly. Absolutely.
    Mr. Watt. I know this is out of regular order, but I wanted 
to just take exception to one thing that the gentleman said.
    I personally am hoping that there is nothing that we find 
at the end of this investigation. And your statement to the 
effect that we are hoping for some kind of sinister result, I 
don't think I want to just let it pass quietly into the night.
    It would be a profound statement about our justice system 
if we found that political and presidential involvement in 
matters that should be outside politics and in the justice 
system were--that these matters were influencing the outcomes 
of prosecutions. And I think it would be devastating to all of 
us.
    This inquiry, from my personal perspective, is not about 
finding wrongdoing. I hope there is no wrongdoing. I think we 
have an obligation to get to the bottom of this, and to 
reassure the public that there is no wrongdoing if in fact that 
is the case.
    If it is not the case, then I think it is our 
responsibility to expose that.
    And I appreciate the gentleman yielding to me, because I 
personally took that----
    Mr. Cannon. Well, I think the gentleman needed it.
    And reclaiming my time, as is almost always the case, I 
agree with the gentleman. And if there is any implication of 
any personal offense, I apologize for that. None was intended.
    Nevertheless, the course of this investigation has thus far 
turned up nothing.
    The gentleman can take, I think, great comfort from the 
interview that Mr. Margolis gave about the integrity of the 
system. And if we were fair and balanced in how we were 
reviewing this, I don't think that I would necessarily be in a 
position to have to try and bring some balance back into it by 
pointing out that thus far nothing has occurred that should 
shake the confidence of people in the system.
    Mr. Watt. If the gentleman would----
    Mr. Cannon. The balance of politics--I grant you a balance 
of politics and fairness, but we need to examine that. And that 
is why Mr. Comey, I think, will be an important witness.
    And I realize I am out of time, but I would ask for 
unanimous consent for an additional minute to yield to the 
gentleman.
    Mr. Watt. And I won't take an additional minute.
    I just want to point out to the gentleman, that obviously 
hadn't read the front page of this morning's Washington Post, 
which suggests that the Justice Department is now doing an 
investigation of whether there were any illegal things taking 
place. And they are now believing that something illegal has 
taken place.
    So this notion that you have that nothing sinister has 
taken place is just not borne out by what appears to be coming 
to light here.
    Mr. Cannon. Well, reclaiming my time----
    Ms. Sanchez. The time of the gentleman has expired.
    Mr. Cannon. Madam Chair, I ask for an additional minute----
    Ms. Sanchez. Without objection, so ordered.
    Mr. Cannon. The fact is this has been a trial by leaks. And 
the press has been, I think, a willing accomplice to try and 
taint the Administration because that sells newspapers. I don't 
think that much as actually come out that is substantial in 
that sense.
    The fact that the Justice Department is doing an internal 
review has been known by, I think, Members of this Committee 
for some period of time. The fact that it appears in The 
Washington Post is not indicative of what we ought to be doing 
or where we ought to be going or justification for what we have 
done, especially since those kinds of stories have typically 
been subject to leaks that I thought we agreed we would not do 
in the course of this investigation.
    And with that, Madam Chair, I yield back.
    Ms. Sanchez. I thank the gentleman for yielding back.
    And I would now like to recognize Mr. Conyers, a 
distinguished Member of the Subcommittee and the Chairman of 
the Committee on the Judiciary. Mr. Conyers?
    Mr. Conyers. Thank you very much, Committee Chairman 
Sanchez.
    I first begin by commending the Subcommittee on Commercial 
and Administrative Law for the excellent way that you have 
comported yourself and moved forward in this investigation.
    I wish we could assure everybody that this will be a very 
brief meeting, and that this matter will be over quickly. I 
have no idea how long we are going to take.
    I am very pleased, I can tell you, that James Comey, the 
former deputy attorney general of the Department of Justice, is 
here with us today. And so we take another important step at 
getting at the truth in our investigation of the recent mass 
firings of U.S. attorneys.
    And we have learned something. We know that the firings 
were apparently part of a long-laid plan involving the highest 
levels of the Department of Justice and the White House.
    We are also aware that misstatements were made concerning 
the reasons for the firings by high-ranking members of the 
Department of Justice, up to and including the Attorney 
General.
    We know that several department officials have resigned in 
connection with this matter--certainly not the witness with us 
today--and that at least one such official has asserted her 
fifth amendment rights against self-incrimination.
    We have also found that numerous questionable, if not 
improper, communications were made by Members of Congress to 
several of the United States attorneys concerning pending 
prosecutions before they were fired, and that efforts were made 
after the firings to discourage United States attorneys from 
cooperating in our inquiry.
    We are aware that thousands of e-mails relating to this 
matter have been lost, misplaced, or destroyed in potential 
violation of Federal law.
    We are also aware that the department has opened up two 
separate internal inquiries related to these matters.
    But what we don't know, as we meet this morning, is who 
actually made the decision to place the U.S. attorneys on the 
firing list. The attorney general, Mr. Gonzales, has told us 
that it was not him. Mr. Kyle Sampson has denied making the 
substantive judgments. We have interviewed other senior 
officials in the department, and all deny making the actual 
decision to place the names on the list.
    The role of the White House remains elusive, in large part 
due to their failure, as referred to by the Chairwoman, to 
cooperate with the Committee's inquiry.
    And so, against this backdrop, we are fortunate to have 
today's witness, who has a unique perspective on the recent 
firings of the eight United States attorneys by the Bush 
administration because he worked closely with many of them as 
fellow United States attorneys and he supervised them and their 
offices for substantial periods of time.
    Mr. Comey has a superb reputation as a career Federal 
prosecutor and an effective deputy attorney general and is 
generally regarded by all as a straight-shooter who has always 
embodied the highest and best traditions of the Department of 
Justice.
    And so, we proceed on today's hearings, knowing that we owe 
the American people the duty to learn, to share with them the 
true reasons for these firings, because the Department of 
Justice and the prosecutorial integrity of our Nation is coming 
under scrutiny. We expect that we will be able to assess what 
is true and what isn't.
    And it is in this spirit that I come to the hearing to 
congratulate the Subcommittee and its Chairman and also the 
witness that is before us today.
    And I thank the gentlelady.
    Ms. Sanchez. I thank the gentleman for his statement.
    Without objection, other Members' opening statements will 
be included in the record.
    Without objection, the Chair will be authorized to declare 
a recess of the hearing.
    I am now pleased to introduce the witness for today's 
hearing. James Comey is a former deputy attorney general of the 
United States, serving in President George W. Bush's 
administration. As deputy attorney general, Mr. Comey was the 
second-highest ranking official in the United States Department 
of Justice and ran the day-to-day operations of the department.
    He was appointed to the position in 2003, after serving as 
the U.S. attorney for the Southern District of New York. Prior 
to that, Mr. Comey served as managing assistant U.S. attorney 
in charge of the Richmond division of the U.S. Attorney's 
Office for the Eastern District of Virginia.
    In August 2005, Mr. Comey left the Justice Department, and 
he is currently general counsel and senior vice president of 
Lockheed Martin.
    We welcome you for your appearance today.
    I want to remind Subcommittee Members that you will be 
permitted to ask questions, subject to the 5-minute limit. And 
we will hopefully have two rounds of questioning, depending on 
how many questions remain after the first round.
    And I want to note also to the Members and to our witness, 
we are expecting the Hate Crimes Bill on the floor this 
morning. So there may be interruptions. And we want to 
apologize ahead of time for those interruptions.
    I will begin the first round of questions myself, subject 
to the 5-minute rule.
    I would ask our witness to please state your name for the 
record.

    TESTIMONY OF MR. JAMES B. COMEY, FORMER DEPUTY ATTORNEY 
                 GENERAL, DEPARTMENT OF JUSTICE

    Mr. Comey. My name is James Comey. I go by Jim Comey. And 
as you said, Madam Chairman, I am currently the general counsel 
of Lockheed Martin and served as the deputy attorney general 
from 2003 to 2005.
    Ms. Sanchez. What were your responsibilities as deputy 
attorney general concerning U.S. attorneys?
    Mr. Comey. I was the direct supervisor of all the U.S. 
attorneys, and so dealt with them quite frequently on a variety 
of matters: resolving disputes, talking with them about 
resources, trying to support them in any way that I could.
    Ms. Sanchez. And both in your role as deputy attorney 
general and as a U.S. attorney serving on the attorney 
general's advisory committee under Attorney General Ashcroft, 
how familiar are you with the work and the performance of the 
six former U.S. attorneys who testified before this Committee 
last month, including David Iglesias, Carol Lam, John McKay, 
Paul Charlton, Dan Bogden and Bud Cummins?
    Mr. Comey. I knew each of those people from being a 
colleague of theirs when I was U.S. attorney of Manhattan and 
as their supervisor. I interacted with them and their districts 
in different degrees.
    I would say that I knew five of the six better. Mr. Cummins 
I didn't have much contact with. I had quite a bit of contact 
with, for example, Mr. Bogden, Mr. Iglesias and Mr. Charlton, 
because they were implementing a violent crime initiative that 
I was in charge of in their districts.
    Ms. Sanchez. Okay. And are you familiar with Attorney 
General Gonzales's former chief of staff, Kyle Sampson?
    Mr. Comey. Yes, ma'am.
    Ms. Sanchez. Okay. Mr. Sampson has testified to the Senate 
and to the House that he was involved beginning in early 2005, 
when you were deputy attorney general, in an effort that 
involved the White House and the Department of Justice and that 
culminated in the termination of the eight U.S. attorneys in 
2006.
    In particular, he has stated that he consulted you in 2005, 
that he asked, ``If you wanted to ask a handful of United 
States attorneys to resign, who would you have on your list?,'' 
and that he shared with you that this inquiry had come from the 
White House.
    Do you recall Mr. Sampson telling you that about the White 
House and asking you that question?
    Mr. Comey. I do not. I remember meeting with Mr. Sampson, a 
date that I couldn't peg until I went through my old calendars 
and now I believe was February 28th of 2005.
    It was a 15-minute meeting. Two topics were covered, as I 
recall. And one was him asking me, as best I can recall, who 
did I think were the weakest U.S. attorneys. I have some 
recollection of him giving me a preamble, something like, ``If 
there is ever an opportunity to replace weak people or if we 
ever look at our U.S. attorneys, who do you think are the weak 
ones?''
    I am quite certain he didn't mention the White House. I 
think that would have stuck in my mind.
    And in response to the question, which was an echo of a 
question that the prior chief of staff, Mr. David Ayres, for 
John Ashcroft had asked me a year earlier, I gave him, off the 
top of my head, my reactions, some people that I thought were 
weak managers and were among our less productive, less 
effective U.S. attorneys.
    Ms. Sanchez. Okay. Was Kevin Ryan of San Francisco one of 
the weak performers that you identified in that conversation?
    Mr. Comey. Yes, ma'am.
    Ms. Sanchez. And other than Mr. Ryan, were there any other 
U.S. attorneys that were terminated in 2006 included among the 
weak performers that you identified in that conversation?
    Mr. Comey. I don't believe so, no.
    Ms. Sanchez. Okay.
    I would like to ask you some specific questions, Mr. Comey, 
about what Mr. Sampson has testified was the first list that he 
compiled of possible U.S. attorneys to be terminated, which was 
sent to Harriet Miers at the White House in early March of 
2005, shortly after your meeting with him.
    I want you to look at the document that was produced by the 
Department of Justice in response to our request and bears the 
identifying numbers of OAG-511. Do you have that document in 
front of you?
    Mr. Comey. Yes, I do.
    Ms. Sanchez. Let me just grab it, so that I have it readily 
available in front of me.
    You will see that some information has been redacted from 
the document, and that it doesn't show that copies were sent to 
anyone inside the Department of Justice.
    Do you recall seeing this document or any other versions of 
it in 2005?
    Mr. Comey. No. I never saw it or any version of it.
    I guess I should have said this in response to your earlier 
question: I was not aware that there was any kind of process 
going on or that my very brief conversation with Mr. Sampson 
was part of some process to figure out a group of U.S. 
attorneys to fire. So I was not aware of a list.
    Ms. Sanchez. Okay. But have you seen it since then?
    Mr. Comey. Yes, ma'am. I saw it for the first time when 
Committee investigators interviewed me, and then I looked at it 
briefly again this morning.
    Ms. Sanchez. Okay.
    Looking at the bottom of the first page, which is OAG-5 of 
the document, as we understand it, U.S. attorneys whose names 
are in bold were identified as those that Mr. Sampson was 
recommending retaining as strong U.S. attorneys who have 
produced, managed well, and exhibited loyalty to the president 
and the attorney general.
    U.S. attorneys whose names were stricken out or had a line 
drawn through them were being recommended for removal as weak 
U.S. attorneys who have been ineffectual managers and 
prosecutors, chafed against Administration initiatives, et 
cetera, and while--there was no recommendation with respect to 
other U.S. attorneys who were described as not having 
distinguished themselves either positively or negatively.
    Is that your understanding of this chart as well?
    Mr. Comey. That is what it says. And I don't know any 
independently of how they put this together, but you have read 
it accurately.
    Ms. Sanchez. Okay. Thank you.
    My time has expired.
    Mr. Cannon. Madam Chair, may I just suggest that every 5 
minutes or so, if there are questions I really want to ask, I 
will--if you just run the clock, I will turn back in. But let 
me ask unanimous consent from everyone we have, Republicans and 
Democrats here, that you just be given the next 10 minutes to 
ask questions, if you would like.
    Ms. Sanchez. Any objections from the Subcommittee? We can 
continue in that manner.
    And just jump in any time, Mr. Cannon, that you would like 
to ask a question. Are you seeking time at this moment?
    Mr. Cannon. No, I actually--I think that if you, yourself, 
do the questioning, I think that would make it a much more 
coherent presentation, and you guys are the ones that are 
looking for information.
    So perhaps after--if you take 10 minutes, like I suggested 
in my unanimous consent, then we will take a look and see if 
there are things we need to ask. Otherwise, I am inclined to 
just have you continue to----
    Ms. Sanchez. Well, I would also like to give the other 
Members of the Subcommittee----
    Mr. Cannon. Certainly there are other people that do. That 
is why I limit it to 10 minutes.
    Ms. Sanchez. Okay.
    Mr. Feeney. Madam Chairman?
    Ms. Sanchez. Yes?
    Mr. Feeney. And it is certainly up to the discretion of the 
Chairman and the Ranking Member. I do have votes in the 
Financial Services Committee, and did have a few questions if 
it was possible. But I certainly, obviously understand the 
Chairman is conducting the meeting.
    Mr. Cannon. I am only interested in having this work as 
quickly and as efficiently for Mr. Comey as possible. And if 
the Chair would like to recognize Mr. Feeney so he can ask 
questions and go, I am happy with that.
    Ms. Sanchez. Certainly. Let me just continue with one last 
question, and then we will--if there is, sort of, a natural 
break in the questions, and then I will recognize Mr. Feeney 
for questions.
    Did you have any idea that this chart existed and was being 
transmitted to the White House at this time concerning the U.S. 
attorneys who you supervised and were familiar with?
    Mr. Comey. No, I did not.
    Ms. Sanchez. Okay. Thank you.
    I will now recognize Mr. Feeney for 5 minutes of 
questioning.
    Mr. Feeney. Thank you. I sure appreciate the courtesy of 
the Chairwoman.
    Mr. Comey, did anybody ever, during discussions about 
review of performance of attorneys or removal of attorneys, 
suggest to you that impacting ongoing investigations was one of 
the considerations in who to remove or how to review their 
performance?
    Mr. Comey. No, sir.
    Mr. Feeney. Did anybody suggest that in order to reward or 
punish somebody for their political affiliation or their 
political leanings that they should be dismissed? Or was that 
suggested as a criteria for review of their performance?
    Mr. Comey. Not in any discussion I was ever present for.
    Mr. Feeney. I have no further questions.
    Ms. Sanchez. Is the gentleman yielding back his time?
    Mr. Feeney. I do. And I once again want to thank the 
Chairwoman and the Ranking Member.
    Ms. Sanchez. At this time, because we do have our Chairman 
of our full Committee joining us here this morning, I would 
like to give him an opportunity to go next and ask 5 minutes of 
questions.
    Mr. Conyers, you are recognized.
    Mr. Conyers. Thank you. Thank you so much.
    Thanks for your appearance here, Mr. Comey. We appreciate 
it very much.
    The testimony so far in this matter is that no one from the 
Department of Justice has taken responsibility for suggesting 
the dismissals of Ms. Lam or Mr. Iglesias, Bogden, Charlton or 
McKay.
    You have known all of them. Do the reasons offered by the 
department for their terminations ring true to you?
    Mr. Comey. I am not sure, Mr. Chairman, that I know all the 
reasons that have been offered.
    My experience with the U.S. attorneys just listed was very 
positive. For example, Mr. Bogden in Las Vegas did a bang-up 
job on the violent crime program that we asked him to help 
with. And I had numerous positive interactions with the others.
    So the ones that I have read in the newspaper have not been 
consistent with my experience. But, again, I have been gone 
since August of 2005. But I had very positive encounters with 
these folks.
    Mr. Conyers. Any particular recollections of your 
associations with Ms. Lam?
    Mr. Comey. I dealt with Ms. Lam as a colleague as U.S. 
attorney in Manhattan; I dealt with Ms. Lam as the deputy 
attorney general. I visited her office, talked to her troops.
    The only substantive interaction I recall with her was I, 
at one point, talked to her about gun cases and spoke to her 
about the importance of that priority in the department.
    But my interactions with her were always positive.
    Mr. Conyers. Thank you.
    Now, about Ms. Monica Goodling, have you heard concerns 
from anyone in the department about efforts by Ms. Goodling or 
anyone else to take political or ideological considerations 
into account in the hiring of line-level U.S. attorneys or 
other career applicants?
    Mr. Comey. I had heard rumors to that effect, and I have 
read in the newspaper most recently about an investigation on 
that subject. But, again, when I say I had heard rumors--after 
I left the Government, in the last 6 months or so.
    Mr. Conyers. Now, let me ask you just a little bit more 
specifically about several of the U.S. attorneys whose names 
were stricken and were recommended for removal on the list of 
March 2005, and who testified before the Committee.
    If you turn to the chart OAG-N6, the second page in this 
document--again, a number of names have been redacted from this 
version of the chart. But what I would like to find out is, can 
you identify any names of U.S. attorneys on this page who have 
been stricken and recommended for removal?
    Mr. Comey. It looks like, if I understand the code 
correctly, that the crossing out of Bud Cummins's name and 
Carol Lam's name means that they are people who were 
recommended for removal.
    Mr. Conyers. Yes. Thank you.
    Let's start with Ms. Lam. Was she included among the weak 
performers who you identified to Mr. Sampson?
    Mr. Comey. I don't believe so, no.
    Mr. Conyers. Thank you. Did you, in 2005 or any time, 
consider Ms. Lam a weak U.S. attorney who was an ineffectual 
manager or prosecutor?
    Mr. Comey. No, I didn't.
    Mr. Conyers. Or did you perceive her to be one who chafed 
against Administration initiatives?
    Mr. Comey. No, I didn't.
    Mr. Conyers. Did you communicate any negative assessment of 
her to Mr. Sampson, or recommend that she be removed?
    Mr. Comey. No.
    Ms. Sanchez. The time of the gentleman has expired.
    Mr. Conyers. I will stop at that point. Thank you.
    Ms. Sanchez. Thank you, Mr. Conyers.
    Mr. Cannon, questions?
    Mr. Cannon. Thank you. Actually, I do have one follow-up 
there.
    I personally thought Ms. Lam was a very competent human 
being. You have mentioned that you talked to her once about 
guns. Can you tell us the substance of what you said to her at 
that time?
    Mr. Comey. Yes, certainly. Attorney General Ashcroft--this 
would have been, I think, in 2004--asked me to speak to each of 
the U.S. attorneys who were in the bottom 10, in terms of gun 
prosecutions--and I think it was calculated per capita, to take 
into account the size of districts.
    And so I spoke to each of those 10 U.S. attorneys that 
included Ms. Lam and told her what I told all the others, and 
that is that this is a priority of the Department of Justice, 
that if there is a contribution to be made by the U.S. 
Attorney's Office in reducing gun crime in the district, that 
is if criminals with guns are not getting the kind of time that 
they ought to in the State system, for example, that we as 
Federal prosecutors wanted to make an impact there, and it was 
a priority of the department. So I needed those U.S. attorneys 
to focus on why their gun numbers were where they were and 
whether there was a contribution to be made that they weren't 
making.
    I said to each of them, ``I am not asking you to make gun 
cases for the sake of pumping your numbers. But if there is a 
contribution to be made in your district, please focus on it 
and see if you can lend a hand in prosecuting gun crimes.''
    So that was the conversation I had with Ms. Lam, as well as 
the other nine.
    Mr. Cannon. So was it by way of admonishment, to some 
degree?
    Mr. Comey. I guess to a certain extent. My tone wasn't 
admonishing, but I learned that it is a big deal any time the 
deputy attorney general calls and wants to talk to you about 
your cases.
    And I wasn't threatening or beating up on them. I was 
simply saying, ``Look, you are in the bottom 10. Maybe that is 
where you should be. Maybe your local prosecutors are really 
hammering gun possession crime; they don't need you. But figure 
out whether you are needed, and focus on it.''
    Mr. Cannon. Mr. Margolis apparently said in his interview 
that Ms. Lam was a bit insubordinate, and even suggested that 
she might agree with that characterization.
    My view of her--and I only met her in the hearing here--was 
that she was pretty tough-minded and pretty clear. And she had 
some pretty good ideas about what she ought to do with guns.
    I take it from your statement here that you were asking her 
to look at it. So this is early in the history of the gun issue 
with her. And you were saying, ``Look at what is happening in 
the State, with local prosecutions, and then decide whether you 
need to adjust your priorities.''
    So you were not mandating that adjustment, I take it, 
right?
    Mr. Comey. Correct. I was urging a very close look, because 
her district, along with the nine others, were in the bottom 
group, to make sure there wasn't a contribution that we were 
missing the opportunity to make.
    And I don't know what happened thereafter to the gun 
numbers. It never came back to my attention. So I don't know 
whether there was a response in some way in her district that 
changed the number of cases they did.
    Mr. Cannon. Right.
    At this point, I think that is all the questions I have.
    Ms. Sanchez. Thank you.
    The gentleman from Georgia, Mr. Johnson, is recognized for 
5 minutes.
    Mr. Johnson. Thank you, Madam Chairwoman.
    Mr. Comey, the conversation that you had with the 10, 
including Ms. Lam, about the relatively low number of Federal 
gun prosecutions in her district, did that indicate any 
dissatisfaction by you with her?
    Mr. Comey. Not personally. I think the fact that I was 
calling was designed--I mean, I intended it to really energize 
the U.S. attorney to focus on the issue.
    But as I have explained to people a bunch of times, when I 
was running the U.S. Attorney's Office in Richmond, Virginia, 
there was a real need for a Federal impact on gun possession 
crimes. Because people weren't getting the kind of time they 
needed to reduce violent crime in the State system.
    When I moved to being U.S. attorney in Manhattan, Bob 
Morgenthau and his office were all over gun possession crimes, 
and doing it very aggressively. So my approach changed. That is 
why I didn't want to mandate to a U.S. attorney, ``Do X number 
of gun cases.'' What I wanted them to do was to focus on it and 
figure out where they could make a contribution.
    Mr. Johnson. Nothing in that conversation or about that 
conversation would be meant to suggest that her performance was 
deficient and that she should be terminated. Is that a fair 
characterization?
    Mr. Comey. That is a fair characterization.
    Mr. Johnson. Of the other 10 U.S. attorneys who you called 
who had relatively low prosecution numbers, how many of them 
were terminated in 2005 or 2006?
    Mr. Comey. None of them, to my knowledge.
    Mr. Johnson. In your opinion, would the number of such gun 
prosecutions be a reliable indicator of whether a U.S. attorney 
was performing well or should be terminated?
    Mr. Comey. No. It tells you nothing in a vacuum.
    As I said, just comparing my experience in Manhattan to my 
experience in Richmond, my gun numbers per capita dropped off 
dramatically when I became U.S. attorney in Manhattan. And I 
thought I was doing an okay job.
    Mr. Johnson. Overall, what was your evaluation of Ms. Lam 
as a U.S. attorney?
    Mr. Comey. I thought she was a fine U.S. attorney. I never 
had experience with insubordination with her. My encounters 
were perfectly pleasant. My only substantive encounter, as I 
said, was in connection with our gun discussion.
    Mr. Johnson. Does your assessment of her include an 
understanding and an appreciation of her work on immigration?
    Mr. Comey. I don't think I ever focused on her work on 
immigration. At least I don't remember discussing it or 
understanding what her work was on immigration.
    Mr. Johnson. Do you have any information or idea from whom, 
whether in the department, the White House or elsewhere, Mr. 
Sampson got his evaluation and recommendation to terminate Ms. 
Lam?
    Mr. Comey. I do not. And as I said, I was not aware there 
was a process going on, frankly. I thought it was a casual 
comment in the course of a very brief meeting.
    Mr. Johnson. Do you have any information, one way or the 
other, as to whether the decision to terminate her was related 
in any way to her work on the public corruption cases involving 
Duke Cunningham or others?
    Mr. Comey. I have no information about that.
    Mr. Johnson. Let's turn to Mr. Cummings. Was Mr. Cummings 
included among the weak performers who you identified to Mr. 
Sampson?
    Mr. Comey. No, sir.
    Mr. Johnson. Did you, in 2005 or at any time, consider Mr. 
Cummings a weak U.S. attorney who was an ineffectual manager or 
prosecutor or who chafed against Administration initiatives?
    Mr. Comey. No, sir.
    Mr. Johnson. Did you communicate any negative assessment of 
Mr. Cummings to Mr. Sampson or recommend that Mr. Cummings be 
removed?
    Mr. Comey. No.
    Mr. Johnson. What was your view of Mr. Cummings?
    Mr. Comey. I didn't have much of a view of Mr. Cummings. I 
knew him, knew he was a very pleasant fellow. But he and his 
district had not crossed my radar screen, which, from the 
deputy's perspective, is actually a very good thing. Bad things 
tend to reach the deputy, and so, if you didn't reach me, you 
must be doing okay.
    Mr. Johnson. And you pretty much considered him to be 
competent.
    Mr. Comey. Yes, that was my sense.
    Mr. Johnson. Do you have any information or idea from whom 
or whether in the department, the White House, or elsewhere 
that Mr. Sampson--well, let me rephrase this question.
    Do you know of how Mr. Sampson received his information and 
came to the conclusion after an evaluation to recommend 
termination of Mr. Cummins?
    Mr. Comey. I do not.
    Mr. Johnson. Let me ask you to turn to page three of the 
chart, page OAG-N8. Can you identify the names, after you have 
reached that page?
    Are you there?
    Mr. Comey. Yes, sir.
    Mr. Johnson. Can you identify any names of U.S. attorneys 
on this page who have been stricken and recommended for 
removal?
    Mr. Comey. There is only one name, and it has been 
stricken. That is John McKay's. So according to the legend 
here, he has been recommended for removal on this chart.
    Ms. Sanchez. The time of the gentleman has expired.
    Mr. Johnson. Thank you.
    Ms. Sanchez. Thank you.
    Mr. Cannon? You still have time.
    Mr. Cannon. Thank you. I appreciate that. At this point I 
don't have any questions. And if you want to just continue with 
your side, that would be fine.
    Mr. Jordan, I don't think, has questions either. He 
indicated to me he hasn't.
    Ms. Sanchez. Okay. We will continue forward. Mr. Watt, the 
gentleman from North Carolina, is recognized for 5 minutes.
    Mr. Watt. Thank you.
    And thank you for being here, Mr. Comey.
    You identified Mr. McKay as one of the people who was 
recommended for removal, and he was, in fact, removed. Was Mr. 
McKay included among the weak performers who you identified to 
Mr. Sampson?
    Mr. Comey. No, sir.
    Mr. Watt. Did you consider him an effectual manager or 
prosecutor or someone who chafed at Administration initiatives?
    Mr. Comey. No, sir.
    Mr. Watt. Did you communicate any negative assessment about 
Mr. McKay to Mr. Sampson?
    Mr. Comey. No, sir.
    Mr. Watt. It was suggested that concerns had been raised 
about Mr. McKay while Larry Thompson was the deputy, relating 
to a murder of an assistant U.S. attorney named Thomas Wales in 
which Mr. McKay had requested some action by the department; 
that Mr. Sampson would have checked with you as the current 
deputy about that before using that as a basis for recommending 
Mr. McKay be placed on the termination list; and that this may 
have been a reason he appeared on the list in March of 2005.
    Do you have a response to that suggestion?
    Mr. Comey. I don't remember discussing that tragedy with 
anyone other than Mr. McKay. And it was simply briefly to talk 
to him about how awful it was, and for him to express his--he 
cared very passionately about finding the person who killed his 
AUSA. And I don't remember any other discussion besides that.
    Mr. Watt. Were you aware of any impropriety or 
inappropriate behavior by Mr. McKay in connection with that 
death?
    Mr. Comey. None.
    Mr. Watt. Okay.
    Some concerns were expressed about Mr. McKay after you left 
as deputy attorney general, and after the March 2005 list was 
put together, concerning the LInX information-sharing system, 
and some suggestions that this may have had something to do 
with his staying on the removal list.
    How would you respond to that?
    Mr. Comey. I don't know whether that played a role on him 
ending up with a line through his name.
    I guess I wasn't supposed to have favorites, but John McKay 
was one of my favorites, because he is a very charming and, as 
I said, passionate person. And he cared about something I cared 
an awful lot about, which was information-sharing.
    And he and I both believed that it was absurd that our 
children could Google and touch billions of pieces of 
information, but someone chasing a serial rapist could only 
find out if other police departments had seen a green car by 
calling every police department and asking if they had seen a 
green car.
    And we both had this vision that we ought to leave a legacy 
of law enforcement being able to Google and catch bad guys. And 
that is what LInX was, an effort to put that technology in 
place.
    So I worked with him pretty closely. I was inspired by him, 
and thought he had a terrific idea and was making a real 
difference with this LInX program.
    Mr. Watt. So the characterization that the Seattle Times 
reported, and which it quoted you as saying that Mr. McKay was 
a person of ``passion and energy and could wear his heart on 
his sleeve, but never had any issues with him being 
insubordinate,'' would be a correct assessment?
    Mr. Comey. Yes, sir, that is correct.
    Mr. Watt. And I take it, then, that your overall view of 
Mr. McKay was that he was a strong performer.
    Mr. Comey. Yes, sir, very favorable.
    Mr. Watt. Do you have any information or idea from the 
source of the department, the White House or elsewhere that Mr. 
Sampson may have gotten his evaluation or recommendation to 
terminate Mr. McKay?
    Mr. Comey. I have no idea where it came from.
    Mr. Watt. Out of the three U.S. attorneys who were 
terminated who testified before this Committee and were 
recommended for termination on the 2005 list, would you 
disagree that performance justified termination of any of the 
three of those individuals?
    Mr. Comey. As of the time I left, I was not aware of a 
performance-related reason that the three folks we have 
discussed should be terminated.
    Mr. Watt. And in contrast, if you turn back to page one of 
the chart, that is OAG-N6, is there a U.S. attorney whose name 
is listed in bold on that page as someone recommended to be 
retained as a strong U.S. attorney who had ``produced, managed 
well, and exhibited loyalty to the president and attorney 
general,'' can you find that person?
    Mr. Comey. Yes, sir. Mr. Ryan.
    Mr. Watt. And is that the same Mr. Ryan who you had 
identified just a few minutes earlier as one of the weak 
performers that you identified?
    Mr. Comey. Yes, sir, I had.
    And a lot of people have been hurt in this process, and I 
don't mean to hurt Mr. Ryan by revealing that I made that 
recommendation. He is a fine guy. He just had management 
challenges in that office that were fairly serious. But I hope 
he has landed on his feet and is doing well.
    Ms. Sanchez. The time of the gentleman has expired.
    Mr. Watt. Thank you, ma'am.
    Ms. Sanchez. Thank you.
    Mr. Cannon?
    Mr. Cannon. Madam Chair, I don't think our side has 
questions. But my two Members have other commitments. If we 
could just have an agreement that I will take 5 minutes--or 
have the opportunity to take 5 minutes after each of your 
witnesses, they may want to leave. And I don't have any 
questions at this point.
    Ms. Sanchez. I am amenable to that suggestion.
    Mr. Cannon. Thank you.
    Ms. Sanchez. Thank you.
    We will continue. Mr. Cohen is recognized, the gentleman 
from Tennessee, for 5 minutes.
    Mr. Cohen. Thank you, Madam Chair.
    Firstly, Mr. Comey, I have, kind of, perused some of this 
material here. And I don't know who you knew at the New York 
magazine, but I would pay for that article. That was great.
    Mr. Comey. I think my mother wrote it. [Laughter.]
    Mr. Cohen. Well, she is a good writer. And I think she has 
good judgment.
    You have got a good vitae. I am impressed.
    I read that at one point that Mr. Rove and Ms. Miers had 
suggested replacing all 93 U.S. attorneys. Did you have 
knowledge of that plot or plan at one point?
    Mr. Comey. No, I had never heard of it before I read about 
it in the newspaper.
    Mr. Cohen. Had that ever happened in history, that there 
was this, like, ``wipe them all off the ship''?
    Mr. Comey. Again, my history doesn't go back that far. I 
have some recollection that at the beginning of the Clinton 
administration, the sitting U.S. attorneys were asked for their 
resignations.
    Mr. Cohen. But they were taking out the Bush guys.
    Mr. Comey. Right. But in terms of during a term, at least 
not in my experience.
    Mr. Cohen. Do you have any reasonable idea in the ideas of 
justice and promoting the American way that that would happen, 
why that would occur or why they would think about that?
    Mr. Comey. I don't. I don't know what folks would be 
thinking who would suggest that. It would be very disruptive. 
And that may be why it was not done. I hope it was why it was 
not done.
    Mr. Cohen. Did you ever have any dealings with Mr. Rove or 
Ms. Miers?
    Mr. Comey. Never with Mr. Rove. I don't think I have ever 
met him.
    Ms. Miers, yes, when she was White House counsel and I was 
deputy attorney general.
    Mr. Cohen. And what was her role as far as personnel and 
politics at the Department of Justice?
    Mr. Comey. I never had any interaction with her on either 
of those subjects. We would talk primarily about issues, legal 
issues that needed input, that related, for example, to 
pardons. It was a direct contact between the deputy attorney 
general and the White House counsel to discuss pardon 
recommendations, for example. But never about politics or 
hiring at the Department of Justice.
    Mr. Cohen. One of the criterias that were laid out for 
looking at who would be considered worthy of keeping strong and 
weak was exhibited loyalty to the president. What do you think 
that term means, in terms of the Department of Justice?
    Mr. Comey. That is a very good question. I don't know 
exactly what they meant by that phrase.
    The Department of Justice, in my view, is run by political 
appointees of the president. The U.S. attorneys are political 
appointees of the president.
    But once they take those jobs and run this institution, it 
is very important, in my view, for that institution to be like 
any other in American life, that--because my people had to 
stand up before juries of all stripes, talk to sheriffs of all 
stripes, judges of all stripes. They had to be seen as the good 
guys, and not as either this Administration or that 
Administration. We just couldn't get our work done if we were 
seen that way.
    So the trick in the Department of Justice was to have an 
organization run by political appointees who recognize that 
they have a special trust to protect this institution and to 
make sure it remains an other in American life so it can serve 
all Americans. I mean, that is what the Department of Justice 
does.
    Mr. Cohen. That is what I see it as. And I couldn't 
understand and don't understand exhibited loyalty to the 
president. I mean, that doesn't--seems like not even a factor. 
It is so political. And I am not sure what that means. And that 
raises a question.
    Do you have any idea--when you left the Department of 
Justice, how would you rate the morale there?
    Mr. Comey. I guess I can't speak for my own staff, but I 
think it was fairly high.
    I mean, the Department of Justice is made up of 110,000 
people who you don't see if you are in Washington. That is why 
I traveled so much as the DAG, because my troops were all over 
the place: in Federal prisons guarding prisoners, executing 
search warrants, protecting victims. And they do it out in the 
field primarily in the Department of Justice.
    And when you visit those people, they are a fired-up group. 
They love doing good for a living. It is a pretty neat thing to 
get paid to do good for a living. And they treasure it.
    And whenever people talk about morale, the great hope for 
the Department of Justice, even as morale may have been hurt by 
this, is that those fired-up people who love what they do still 
love it and are not going to let anything get in the way of 
that.
    Mr. Cohen. Do you have any idea what the morale is at the 
Department of Justice now from contacts with others based on 
information and belief?
    Mr. Comey. I think folks are having a tough time now. This 
is a tough period of time for the department.
    Mr. Cohen. You loved the Department of Justice, and it is 
obvious from your testimony if anything was done to--it has 
been weakened, has it not, because of this situation, this 
controversy?
    Mr. Comey. I sure hope not. Because when I think of the 
department, again, I think of the whole, all 110,000 people.
    Certainly, it has caused a morale hit here at main Justice, 
the mothership. But I hope it doesn't affect that which is 
essential about this institution, and that is the ability to do 
good every day and to protect people and to help people.
    And I just count on the fact that I know how good the 
people are out there doing the work, that FBI agents executed a 
search warrant, I am sure, someplace in the country this 
morning and risked their lives. And they are doing it because 
they love to do it, and----
    Mr. Cohen. If somebody that was the head of this department 
took actions that may weaken the department, would they be put 
on the weak list, that might be those that, you know, should 
go? [Laughter.]
    Ms. Sanchez. The time of the gentleman has expired, but we 
will allow the witness to answer.
    Mr. Comey. I would hope the time expiring would help me as 
well. [Laughter.]
    Mr. Cohen. I would like to ask for 30 extra seconds. 
[Laughter.]
    Mr. Comey. You know, in many ways I miss the department 
terribly, but in other ways I enjoy being a private citizen.
    I don't think that is for me to say. I didn't put together 
any lists. I don't understand this code, frankly. And so, if I 
could, I would like to take a pass on that one.
    Mr. Cohen. You will take it. Thank you, sir.
    Ms. Sanchez. Okay. Mr. Cannon is recognized.
    Mr. Cannon. Thank you.
    It is obvious that you love the department. And may I just, 
without asking a question, just make the point that what the 
department does is vitally important to America, and we agree 
on that.
    It is a wonderful institution. It is an institution that 
has developed wonderful processes, that are complicated, over a 
long period of time.
    And that I am hopeful that we can get through this 
investigation as quickly as possible so that the danger you 
have referred to that may be happening to the morale and 
institution of what you called the mothership is very important 
to America and that we need to solve this problem, get through 
it, and then let the Administration deal with how they adjust 
after we get through.
    And with that, Madam Chair, I would yield back.
    Ms. Sanchez. Thank you.
    We do have substantially more questions to get through, so 
we will begin a second round of questioning. And I will 
recognize myself to begin that second round.
    I want to go back--I believe Mr. Watt had started to ask 
you a series of questions about Mr. McKay.
    Are you aware of the fact that in connection with the 2004 
election, just a few months before the March list was prepared, 
that there were concerns raised by Republicans and others in 
Washington about Mr. McKay not pursuing an alleged voter-fraud 
case in an election in the State?
    Mr. Comey. I had never heard that, and know of it only what 
I have seen in the newspaper.
    Ms. Sanchez. Do you have any information, one way or the 
other, as to whether complaints about Mr. McKay's actions or 
lack of actions on these vote-fraud allegations went to the 
White House or anybody else at the Department of Justice?
    Mr. Comey. I don't know.
    Ms. Sanchez. Okay. Thank you.
    I would like to now ask you some questions about Mr. 
Charlton and Mr. Bogden. Those two were both terminated, and 
testified before this Committee, but were first identified for 
possible termination in early 2006, shortly after you left the 
department. And I realize that.
    Did you ever indicate to Mr. Sampson anything negative 
about Mr. Charlton----
    Mr. Comey. No.
    Ms. Sanchez [continuing]. Or his performance?
    Mr. Comey. No.
    Ms. Sanchez. What was your view of Mr. Charlton as a U.S. 
attorney?
    Mr. Comey. I thought he was a very strong U.S. attorney, 
one of the best. And I had dealt with him as a colleague when I 
was U.S. attorney. And I had dealt with him in particular on 
the violent crime impact initiative that we had in his district 
and Iglesias's and Bogden's.
    Ms. Sanchez. Well, there has been some suggestion that one 
of the reasons why he was placed on the termination list or was 
maintained on the termination list was because of his decision 
to ask the attorney general to reconsider a decision to seek 
the death penalty in a death penalty case.
    What is your reaction to that claim?
    Mr. Comey. I don't have any personal knowledge of that. 
There wasn't much--in fact, I don't think there was anything 
more important that I did as deputy attorney general than make 
recommendations on death penalty cases, whether to seek the 
ultimate sanction for somebody. I always welcomed U.S. 
attorneys talking to me about it, giving me input.
    I remember--and I can't remember all the details--Mr. 
Charlton once calling me to talk to me about a case to give me 
input that wasn't in the papers that I had seen. And he turned 
me around on a particular case and how to approach a case, as I 
recall, when Attorney General Ashcroft was there.
    Paul Charlton was a very experienced, still is, very smart, 
very honest and able person. And I respected him a great deal 
and would always listen to what he had to say.
    Ms. Sanchez. So that was a case that you recall, not the 
details of where presumably you guys wanted to seek the death 
penalty, he had talked to you about that case and managed to 
actually convince you that perhaps that wasn't the sanction 
that was warranted in that case?
    Mr. Comey. I think it was a case where we had sought the 
death penalty, and the defendant wanted to plead guilty to life 
without parole. I think in the first instance we had rejected 
that.
    And, as I recall, Mr. Charlton called me and talked to me 
and said, ``I have got to get you to take another look at that; 
let me explain why,'' and made a very convincing case. And my 
recollection is that he turned me around on it.
    And I concluded that his concern was particularly for the 
victim's family, and that he was concerned they would be 
traumatized again. And they were passionate that they wanted to 
resolve this on a life plea.
    So he turned me around on it. And my recollection is I 
changed my recommendation. And I think I convinced John 
Ashcroft to turn around on it.
    Ms. Sanchez. So based on the fact that he had successfully 
brought new information to your attention which made you change 
your mind on a case, would that be a legitimate basis in the 
future for them saying, ``He deserves to be fired because he 
tried to talk to us about another isolated case in which we 
were seeking the death penalty and perhaps he felt that wasn't 
warranted''?
    Mr. Comey. All I can do is speak about myself. I would 
never not only not discourage that kind of thing, I would 
encourage it. Because I needed to hear from the people in the 
field who knew these cases, because I am trying to make these 
decisions off a notebook in Washington, D.C., and I can't feel 
the pain of the victim's families. And he can. And you always 
want that input.
    Ms. Sanchez. I appreciate that.
    Are you aware of Mr. Charlton's work with respect to 
charges concerning alleged improper actions by Representative 
Renzi, based on media reports or other sources?
    Mr. Comey. I have read some about it in the newspaper. I 
knew nothing about it when I was in the Government.
    Ms. Sanchez. Do you have any information, one way or the 
other, about whether that work played any role in the decision 
to remove him as a U.S. attorney?
    Mr. Comey. I don't know.
    Ms. Sanchez. Let me ask you about another U.S. attorney who 
was placed on the termination list in early 2006, Dan Bogden. 
Did you ever indicate to Mr. Sampson anything negative about 
Mr. Bogden or his performance as a U.S. attorney?
    Mr. Comey. No.
    Ms. Sanchez. Do you believe that he lacked energy in his 
handling of his office, as has been claimed by some?
    Mr. Comey. No.
    Ms. Sanchez. My time has expired. I would like to recognize 
Mr. Johnson for 5 minutes.
    Mr. Johnson. Thank you, Madam Chair.
    With respect to Mr. Bogden, what was your view of Mr. 
Bogden as a U.S. attorney?
    Mr. Comey. I thought he was a very good U.S. attorney. He 
is as straight as a Nevada highway, and a fired-up guy.
    And we had this violent crime impact team program that we 
asked ATF to lead, and we chose places to do it that were 
experiencing a spike in violent crime. But not every place that 
was experiencing a spike in violent crime; we wanted to put it 
where we had a fired-up U.S. attorney who could watch over it 
and make it work and had great relations with State and local 
law enforcement.
    That is why we chose Mr. Bogden's district in Las Vegas, 
because they were experiencing a spike in violent crime. But 
that is the kind of U.S. attorney he was. He was loved in that 
community.
    And I went once to announce the program with him and 6 
months later to give a report card to the people of Las Vegas, 
and he had made tremendous strides on violent crime. I thought 
he was very good.
    Mr. Johnson. Do you know anything about his performance 
that would have justified his removal?
    Mr. Comey. No, I don't.
    Mr. Johnson. Do you have any idea as to where or from what 
source Mr. Sampson got his information upon which he evaluated 
and then recommended termination of Mr. Bogden?
    Mr. Comey. I do not.
    Mr. Johnson. With respect to Mr. Iglesias, who testified 
before this Committee, going back to the 2005 chart, you will 
note that his name was bolded as a strong U.S. attorney who 
should be retained. Is that correct?
    Mr. Comey. Yes, I see it in bold on page ``multiple zero''-
seven.
    Mr. Johnson. Do you agree with that assessment?
    Mr. Comey. Well, I am not sure what the criteria are, so I 
am not sure I could agree or disagree about loyalty to the 
president and attorney general.
    But I thought he was a very effective U.S. attorney. He 
was, sort of, the Bogden of New Mexico: very straight, very 
able.
    Mr. Johnson. So you would agree that he was a strong U.S. 
attorney who should have been retained?
    Mr. Comey. Yes.
    Mr. Johnson. And can you give us any other information 
about his performance? Apparently you saw him as being--I mean, 
you just said that. Anything else you would like to say about 
his performance?
    Mr. Comey. No. I had contact with it again through the 
Violent Crime Impact Team program, where he did it in 
Albuquerque and did it very, very effectively. Albuquerque 
experienced dramatic drop in homicides in particular and 
shootings, as I recall, in their most problem-plagued 
neighborhoods as a result of that program.
    I thought he was very effective. I, obviously, as with the 
others, I knew him as a colleague first and then as his boss, 
and had a very positive view of him.
    Mr. Johnson. When Mr. Iglesias, as you may know, was added 
to the list to be terminated in November of 2006, the only 
performance-related criticism that we have heard of him was 
that he delegated too much to his first assistant and that he 
was an absentee landlord, if you will, too hands-off.
    What is your reaction to that criticism?
    Mr. Comey. It had never reached my ears when I was deputy.
    I have read in the paper that he was supposedly away to do 
service in the Navy, because he was a reservist. I knew that 
and knew the famous story about him being the model for Tom 
Cruise, and used to tease him about not being as cute as Tom 
Cruise. [Laughter.]
    But all I know is what I have read in the paper.
    And if a U.S. attorney was away to serve his country as a 
Navy reservist, it is not something that I as DAG would have 
held against him, certainly.
    Mr. Johnson. Well, depending on the strength, I guess, of 
his first assistant, would you consider delegation of some 
management tasks to that first assistant, assuming that that 
first assistant was competent, would that not be a strength, as 
opposed to a weakness?
    Mr. Comey. Certainly, so long as it is reasonable.
    And I had a very effective first assistant when I was U.S. 
attorney in Manhattan. He followed me as U.S. attorney, David 
Kelley. And I used to give him all the hard stuff to do. 
[Laughter.]
    Mr. Johnson. I am sure that many of the staffers around 
here could relate to that. [Laughter.]
    So would it be fair to conclude that Mr. Iglesias was 
considered to be very engaged in his job as U.S. attorney?
    Mr. Comey. I certainly thought so. It was my impression 
from dealing with him when I was there.
    Mr. Johnson. Now, I want to read to you a brief excerpt 
from the last year's evaluation report on Mr. Iglesias.
    It states, ``The United States attorney was experienced in 
legal, management and community relations work and was 
respected by the judiciary, agencies and staff. The first 
assistant United States attorney appropriately oversaw the day-
to-day work of the senior management team, effectively 
addressed all management issues, and directed the resources to 
accomplish the department's and the United States attorney's 
priorities.''
    Now, does that suggest to you that Mr. Iglesias improperly 
or inappropriately delegated tasks?
    Mr. Comey. No. That sounds like an A-grade review.
    Ms. Sanchez. The time of the gentleman has expired.
    Mr. Johnson. Thank you.
    Ms. Sanchez. Mr. Cannon is recognized for 5 minutes.
    Mr. Cannon. Thank you, Madam Chair.
    We talked about a couple of U.S. attorneys with some 
particularity, from your perspective. And I just want to point 
out that that--your working with an understanding of them 
happened at a relatively significantly earlier stage, and you 
have, what, a year and a half or so where you were not 
overseeing them, is that not the case?
    And, first, I liked Bogden. I thought he was a very 
competent guy. I don't know what was going on there.
    But my experience with Mr. Iglesias was actually, sort of, 
startling. We talked about--I think we had Mr. McKay and Ms. 
Lam who had both reported contacts from Members of Congress to 
the department. And when I asked Mr. Iglesias about his 
reporting of contacts that he had claimed in the press, he 
said, yes, he had reported those contacts to the department. 
And I asked him when. And he said by talking to the press about 
them, by telling the press. I was absolutely astounded at that 
approach. He could have said ``no'' as easily.
    And then he went on to talk about or try to make a 
distinction between announcing indictments after he was asked 
to resign and announcing that there was going to be action when 
everybody knew that there was an investigation going on, and 
making some hollow distinction that those were not indictments 
that he was announcing.
    I think that what I have just said is a fair 
characterization of the record that he made here before us. Is 
that consistent with the Mr. Iglesias that you knew and thought 
was a qualified U.S. attorney?
    Mr. Comey. I don't know what exactly he means by, as you 
said, ``I disclosed it to the department by telling the media 
that.''
    Mr. Cannon. I didn't know either, but, apparently, he had 
not called his supervisor at the Department of Justice and 
said, ``I have had a call or a contact and it consisted of the 
following,'' which is, I think, what the department manual 
requires.
    Mr. Comey. That is what a U.S. attorney is supposed to do. 
It sounds to me like he screwed up in that instance, and should 
have made the call and reported the contact.
    It doesn't necessarily change my view of him that he was a 
competent U.S. attorney. And in my experience, like I said, he 
was a very fired-up guy and a competent guy.
    Mr. Cannon. I don't mean to niggle here, but the fact that 
he was a competent guy in your perspective, and that would not 
be diminished by his failure to call, if he did what I 
suggested to you, which is say that he actually had complied 
with the requirement by telling the press, would that cause you 
to question his judgment?
    Mr. Comey. It just strikes me as curious.
    Mr. Cannon. Yes, it was odd.
    Mr. Comey. It doesn't make a whole lot of sense to me.
    Mr. Cannon. I guess what I--I don't mean to put you on the 
spot. You are here rethinking a lot of stuff, and I think you 
have answered these questions very, very well that have been 
put to you.
    But the point is, people change. And there was a time lag 
here.
    Mr. Comey. Absolutely.
    Mr. Cannon. And as I think your testimony--and the record 
should reflect that you are nodding at this point--is based 
upon your knowledge at the time that you were here and not a 
rethinking of the judgment made by people subsequent in the 
department.
    Mr. Comey. That is absolutely the case, and I should make 
that clear. I don't know what happened after August of 2005. I 
wasn't consulted to get updates on how people were doing, so I 
really can't speak to it.
    And I don't intend my testimony to be a criticism of my 
successor. I don't know what the encounters were between the 
DAG who followed me and the U.S. attorneys. I have read some 
stuff in the paper, but I don't have any personal knowledge of 
that.
    Mr. Cannon. Thank you. I really appreciate that.
    And just before I yield back, let me point out that what is 
happening I think so far in this questioning is a rethinking, a 
grasping at straws, rather than looking at a process that 
actually, over thousands and thousands of documents and now 
over more than a half a dozen interviews, has shown itself to 
be actually a fairly thoughtful, competent process.
    Mr. Cannon. And perhaps Mr. Watt's hopes will be achieved 
here soon, and then we can get beyond this and let the 
department do its work.
    Thank you, Madam Chair----
    Ms. Sanchez. Does the gentleman yield on that point?
    Mr. Cannon. Yes, I yield----
    Ms. Sanchez. All right.
    I just want to respond to something you said before we 
lunch. There are still more questions outstanding. We would 
like to do a third round of questioning.
    But when you say there is a grasping at straws, this is an 
investigation where we are trying to find out the circumstances 
under which these U.S. attorneys were fired. Nobody at the DOJ 
seems to know who created the list or who put the names on the 
list.
    And that is the purpose of this hearing today, is to try to 
elicit some of the information regarding the performance--
because performance was at one point given as the justification 
for the firing of some of these U.S. attorneys.
    Mr. Comey has----
    Mr. Cannon. Reclaiming my time, which is about to expire, 
let me just point out that performance--we have been through 
the issue of the use of the term ``performance.'' And Mr. 
McNulty was very careful about saying that performance meant 
meeting the criteria of the Administration.
    And unfortunately that was taken--and there are a number of 
communications to indicate that people took particular offense 
at that idea of having their performance, their capability 
questioned. It seems to me----
    Ms. Sanchez. The time of the gentleman has expired.
    Mr. Cannon. I ask unanimous consent for an additional 30 
seconds.
    Ms. Sanchez. So ordered.
    Mr. Cannon. If the gentlelady's argument is that we are 
trying to find out where this list came from, Mr. Comey 
actually may be relevant in a very narrow sense to that 
question, because he was there early in the discussions.
    I think what we have heard so far is that he wasn't really 
involved in that, but that I think if we ask the gentleman we 
would find that he believes there was a process that was a 
significant process that generated a review. And that may be 
helpful. I don't know that much else would be.
    Ms. Sanchez. The time of the gentleman has expired. And I 
will take the first few seconds of my third round of--oh, I am 
terribly sorry. I apologize. It is Mr. Watt's turn to speak.
    Mr. Watt is recognized for 5 minutes.
    Mr. Watt. If the Chairlady would prefer me defer to her, I 
am happy to do that. But I was about to go exactly where Mr. 
Cannon has invited me to go----
    Ms. Sanchez. Lead the way, Mr. Watt. Lead the way.
    Mr. Watt [continuing]. Which was to ask Mr. Comey whether, 
during the time that you were the deputy, did it ever occur 
that U.S. attorneys were terminated or asked to resign? And, if 
so, without identifying the individuals involved, could you 
describe what the process was that you followed?
    Mr. Comey. Certainly.
    I remember two occasions on which we asked U.S. attorneys 
to resign. Both had engaged in what I considered serious 
misconduct. And one was when John Ashcroft was attorney 
general. The other was when Alberto Gonzales was the attorney 
general.
    In each instance, my recollection is that I spoke to the 
attorney general about the misconduct, laid it out. We 
discussed it and how serious it was and got his approval to 
have my senior staff member, David Margolis, who has been 
mentioned, place a call to this individual and suggest that he 
resign.
    And in both cases, that is what we did. I talked to my 
staff about it quite a bit, talked to the attorney general, 
then had Mr. Margolis place a call and tell the U.S. attorney 
that it was time to leave and explain why; that, given what had 
been found and the conduct that had been discovered, that it 
was not appropriate for them to remain in office.
    And one U.S. attorney resigned in response to that call. 
The other insisted on being fired by the president. And so we 
had the president actually fire him by letter.
    Mr. Watt. And in the course of that process, who would have 
the contact with the U.S. attorney? Would it be you at the 
deputy level? Would there be any discussions with the U.S. 
attorney who was being considered for termination about the 
allegations?
    Mr. Comey. It was, in both instances, Mr. Margolis, who was 
associate deputy attorney general, and this was within his 
portfolio. He handled--used to call him the Turk. He handled 
discipline matters and problematic appointees and 
investigations. And so, he spoke in each instance to the U.S. 
attorney, explained why we were asking for the resignation, 
went through it in some detail.
    Mr. Watt. So if in fact in October of 2006--or, it was 
reported that Senator Domenici, who, interestingly enough, had 
recommended Mr. Iglesias for his job, then decided that Mr. 
Iglesias was not ``up to the job,'' is what I understand he 
said--would there have been a discussion in this process that 
you had historically followed with Mr. Iglesias about that 
before a termination occurred? Or would you just up and fire 
Mr. Iglesias 1 day without that kind of discussion taking 
place?
    Mr. Comey. I guess all I can speak to is what my experience 
was. And that is, in both of the cases where I was involved 
with doing that, terminating a U.S. attorney, there were 
extensive discussions with the U.S. attorney so they understood 
why we wanted them out.
    And the two I was involved with were--I am not going to go 
into it here--but were not close calls. I mean, these were, as 
soon as you read about it, you said, ``This guy has got to 
go.''
    But we explained it, through Mr. Margolis, to both people 
in the two cases I was involved with.
    Mr. Watt. I will be happy to yield the balance of my time 
to the Chair. And she is next anyway, I believe, so she can 
just tack it on to her 5 minutes.
    Ms. Sanchez. I appreciate your yielding time, Mr. Watt.
    If a U.S. attorney was, in fact, fired for not following 
Administration priorities on some subject, but neither the U.S. 
attorney nor the first assistant or successor were told the 
reasons for the firing, would you expect that the firing would 
create a change in the priorities of that office, if neither 
one were informed of the reasons for the firing?
    Mr. Comey. If they didn't know about the concerns about the 
priorities?
    Ms. Sanchez. Yes, if somebody was just summarily dismissed, 
and there was no discussion that took place with the U.S. 
attorney nor their first assistant, who presumably would be the 
person in charge in the interim, if the reasons for their 
dismissal were never discussed, would you expect that there 
would be any change in priority in that office or ability to do 
better in the areas that were deficient of the person who was 
on the way out the door?
    Mr. Comey. I suppose it would be hard for them to respond 
if they didn't know what the message was that was being sent. 
So I guess the answer is, if I were the U.S. attorney being let 
go, I wouldn't know what priorities to pass along to my first 
assistant.
    Ms. Sanchez. Just recently, the Seattle Times reported that 
you had informal discussions with Attorneys General Ashcroft 
and Gonzales about underperforming U.S. attorneys. Is that 
correct?
    Mr. Comey. No. I am going to offend my friends in the 
press. It was a bit of a garble by that reporter.
    I spoke to each of those attorneys general, their chiefs of 
staff, briefly about it. Mr. Ayres asked me in 2004, said, 
``Who do you think are the weakest U.S. attorneys?'' I answered 
off the top of my head. And then Mr. Sampson in February of 
2005 asked me basically the same question, almost in the same 
words, and I answered again off the top of my head.
    I never spoke to either Mr. Ashcroft or Mr. Gonzales about 
that subject.
    Ms. Sanchez. So you spoke with their chiefs of staff. Did 
you identify to those chiefs of staff any of the U.S. attorneys 
who were fired in 2006 as underperforming, other than Mr. Ryan?
    Mr. Comey. No, I don't believe so.
    Ms. Sanchez. Now, we all know, because it has been stated 
multiple times in many of the hearings that we have had, that 
the U.S. attorneys serve at the pleasure of the president and 
can be dismissed by him as he sees fit. Is that correct?
    Mr. Comey. That is my understanding, yes, ma'am.
    Ms. Sanchez. Great. But in your view, would it be proper to 
seek the removal of a U.S. attorney in order to retaliate or to 
influence the bringing or the failure to bring cases to benefit 
a particular political party? Would that be proper?
    Mr. Comey. In my view, it would not be. It ought not to be 
something that we do. And I don't have any reason to believe 
that was done here. I don't know the facts. But I would be 
concerned about that if that happened.
    Ms. Sanchez. Right. We understand. Because you have stated, 
I think, previously that you didn't have any information, one 
way or the other, to whether or not that played a role in the 
decision to terminate the six U.S. attorneys who testified 
before the Subcommittee earlier this year.
    Mr. Comey. Correct.
    Ms. Sanchez. Okay. But in your view and to the best of your 
knowledge, were there valid, performance-based reasons to 
terminate any of these six U.S. attorneys?
    Mr. Comey. Not in my experience with them.
    Ms. Sanchez. So during your time----
    Mr. Comey. During my tenure, no.
    Ms. Sanchez. Thank you.
    Mr. Comey, returning to that 2005 list that we have been 
discussing this morning, although it is not reflected on the 
redacted version of the chart that you have in front of you, it 
has been reported that Patrick Fitzgerald of Illinois was 
listed on that chart in the middle category as someone who had 
not distinguished himself positively or negatively.
    What is your reaction to that rating?
    Mr. Comey. I have never thought much of him. [Laughter.]
    No, I am just kidding. He is a very close friend of mine--
--
    Ms. Sanchez. I think he will be shocked to hear that.
    Mr. Comey. He is a very close friend of mine. I think he is 
one of the finest Federal prosecutors that there is and maybe 
has ever been.
    Ms. Sanchez. So you would disagree with the assessment on 
that list that he hasn't distinguished himself either 
positively or negatively?
    Mr. Comey. Although I have enjoyed teasing him about it, it 
would not be where I would put him on the list.
    Ms. Sanchez. Okay, thank you.
    It has also been reported that Steve Biskupic--I hope I 
pronounced that correctly--of Wisconsin was on an early list of 
U.S. attorneys for termination. Did you identify him to Mr. 
Sampson as a weak performer?
    Mr. Comey. No. I think very highly of him.
    Ms. Sanchez. Okay.
    And in your view, what has been the message sent to and the 
effect on the morale of other U.S. attorneys, assistant U.S. 
attorneys, in the Department of Justice as a result of the 
firing of the six U.S. attorneys who have testified before this 
Committee?
    Mr. Comey. It is a big group, so it is hard to characterize 
in one sweeping statement. But, as I said, this is a hard time 
for folks at the department for a whole lot of reasons. And I 
think it is a time of great uncertainty and pain for people who 
love the Department of Justice.
    Ms. Sanchez. Okay.
    My final question. I want to actually just read you a part 
of an e-mail that has been provided to the Committee and that 
was apparently sent to you by Bud Cummins on March 8th relating 
to the firings.
    According to the text that we have been provided, you 
stated the following to Mr. Cummins: ``You are a good man and 
have handled this maelstrom with great dignity. Watching it 
causes me great pain for the USAs whom I respect and the 
department which I love. Regardless, I will not sit by and 
watch good people smeared. What is that quotation about, `All 
that is necessary for evil to triumph is for good men to remain 
silent'?''
    [The e-mail follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Sanchez. Did you, in fact, tell Mr. Cummins that?
    Mr. Comey. I did.
    Ms. Sanchez. Thank you, Mr. Comey.
    I have no further questions.
    Mr. Cannon?
    Mr. Cannon. Mr. Comey, I appreciate your humor there. 
[Laughter.]
    You have mentioned Mr. Margolis as a very competent person.
    Mr. Cannon. I am going to read some of the things that he 
has said recently, and I will think you will get another 
chuckle out of this as well.
    I don't know if you are familiar with this at all, but Mr. 
Barrera to Mr. Margolis: ``Do you have an understanding as to 
what Mr. Comey's opinion of the performance of Mr. Iglesias was 
as a U.S. attorney?
    ``Mr. Margolis: Only by reading a quote from him''--that is 
from you--''in the newspaper. Mr. Barrera: Do you have an 
opinion on whether or not Mr. Comey as deputy attorney 
general--'' Mr. Margolis interrupts and says, ``I sense a 
softball coming. Just throw it out there.'' [Laughter.]
    ``Mr. Barrera: Do you have an opinion on Mr. Comey's 
evaluation of Mr. Iglesias as U.S. attorney? Mr. Margolis: Jim 
is very fair''--referring to you, Mr. Comey--``very decent. I 
have to admit he is softer than I am on personnel judgments, 
but he certainly had a better basis to judge this guy than I 
did.''
    ``Mr. Barrera: Did you ever have any conversations with 
anyone in which you recall, prior to December 6, 2006, that Mr. 
Iglesias had any performance or conduct issues? Mr. Margolis: I 
don't believe so, no.''
    ``Mr. Barrera: Did you at any time prior to December 7, 
2006, understand that any elected officials, including Senator 
Domenici or Heather Wilson, had expressed concerns of any sort 
about Mr. Iglesias?''
    ``Mr. Margolis: No, I learned that subsequently. I would be 
remiss if I didn't point out that I am furious at Mr. Iglesias 
for not reporting this. And I don't think I would be sitting 
here answering questions if he had reported that. Because the 
way we react at the department when something like that comes 
up is we run the other way to make sure nobody thinks we are 
fixing the case. So that is unforgivable. And his explanation 
was unforgivable. His explanation was, `Oh, this guy was my 
mentor.' That is what we hold out as an independent U.S. 
attorney to the public. To say, `Oh, well, I am not going to 
follow the rules if I like this guy,' or something like that, I 
am furious about that. Now that doesn't mean I am not furious 
at the other party to the conversation, either. But I don't 
expect as much of him. And I will just say that I know the 
other two parties very well, and I don't believe that they 
would ever have done a phone call the way Mr. Iglesias 
characterized it.''
    So I think Mr. Margolis represents himself remarkably well 
as an advocate for the Department of Justice. I believe that 
you are laughing and I am laughing because here is a guy who 
actually loves an institution, doesn't like to see it hurt as 
it is being hurt, is angry about the improper actions of at 
least one individual there.
    I don't really expect a comment from you on this, although 
I think that it was worth a chuckle. And I think it helps put 
in perspective where we are going on this.
    And, in the end, what we are talking about is the major 
justice system in America; not the judiciary, which is 
important and independent, but the major process whereby we 
identify crime and prosecute significant crime in America.
    That is the important thing, and that is what justified, I 
think, the humor but also the anger. I used the term 
``furious'' twice because it goes to the core of what we are 
doing as a society here. This is an issue I hope we can resolve 
quickly.
    And with that, Madam Chair, I yield back the time with the 
great hope that we can get to the core issues and all of us 
yield back our time and move on.
    Ms. Sanchez. I appreciate the gentleman yielding back the 
balance of his time.
    Before we adjourn, because we have just been called to 
vote, I know Mr. Johnson has a series of questions very quickly 
he would like to run through.
    But before that, I am going to ask unanimous consent to 
enter into the record the e-mail from Kyle Sampson to Harriet 
Miers that we discussed in questioning this morning, the list 
in question of the U.S. attorneys who were evaluated, and also 
the e-mails from Mr. Comey to Mr. Cummins and the e-mail from 
Mr. Comey to Mr. Charlton.
    And without objection, so ordered.
    [The e-mail follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
   
    
    Ms. Sanchez. I will now recognize Mr. Johnson for final 
questions that he may have.
    Mr. Johnson. Thank you, Madam Chair.
    Mr. Comey, the Department of Justice has recently confirmed 
that the Office of Inspector General and the Office of 
Professional Responsibility are investigating whether partisan 
political tests were applied to the hiring of assistant United 
State attorneys in offices that were headed by interim or 
acting United States attorneys.
    If, in fact, there was partisan political tests that were 
applied in the hiring of those U.S. attorneys, what impact do 
you believe that would have on career professionals in the 
department, on the fair and impartial administration of our 
Federal criminal justice system? And what impact would it have 
on the public's confidence in Federal criminal prosecutions, 
particularly in the area of political corruption?
    Mr. Comey. That is, in my view, the most serious thing that 
I have heard come up in this entire controversy. If that was 
going on, that strikes at the core of what the Department of 
Justice is. You just cannot do that.
    You can't hire assistant U.S. attorneys based on political 
affiliation, again, because it deprives the department of its 
lifeblood, which is the ability to stand up and have juries of 
all stripes believe what you say, and have sheriffs and judges 
and jailers and the people we deal with trust the Department of 
Justice.
    It just--that concerns me a great deal. I hope that didn't 
happen. I hope the investigation turns out that it didn't 
happen. But that is a very serious thing.
    U.S. attorneys are political appointees, as the Chairman 
said. They can be terminated for any reason. And I understood 
that I was a political appointee. But these AUSAs, they are the 
ones on whom the whole system rests. And we just cannot have 
that kind of political test.
    Mr. Johnson. Well, let me ask you, if it is established 
that assistant United States attorneys over the last few years 
have been hired on a partisan political basis, what remedies do 
you think should be implemented to eliminate or minimize the 
adverse impact of those improperly based hirings?
    Mr. Comey. I don't have a suggestion at this point. I 
don't. It is very troubling. I don't know how you would put 
that genie back in the bottle, if people started to believe we 
were hiring our AUSAs for political reasons. I don't know that 
there is any window you can go to get the department's 
reputation back if that kind of stuff is going on.
    Mr. Johnson. Has any U.S. attorney expressed concerns to 
you about this problem since you left the department or even 
before you left the department?
    Mr. Comey. A couple have said to me--when I said I had 
heard about it, rumors, a couple of them had said they had 
heard second-and third-hand that this was going on, and shared 
my concern. But I don't have--and no one I spoke to had first-
hand knowledge of it.
    Mr. Johnson. Would you care to identify those who you had 
those discussions with?
    Mr. Comey. I would love not to, because they were private 
conversations. I am not going to refuse the Committee's request 
if it becomes important, but these are people who were talking 
to me about their concerns about the department.
    Mr. Johnson. All right. Well, I am sure that that can be 
handled in a more sensitive way.
    But I have one last question: What kind of leadership and 
actions will have to take place at the department to ensure 
that future prosecutions are not tainted by improperly based 
hirings?
    Mr. Comey. I don't know the answer to that. A whole lot of 
time and a whole lot of good work will be necessary to heal 
that kind of wound. We have already seen some of it.
    I have said nice things about Steve Biskupic, the U.S. 
attorney in Milwaukee, who is an absolutely straight guy, but 
because of this controversy, people have questioned whether he 
prosecuted people who were Democrats for partisan reasons. And 
without even knowing the cases, I would absolutely know that 
wasn't the case. But people started to doubt it, because of 
this controversy.
    So I don't know what, other than time and people just in 
individual encounters doing it well and doing it well over and 
over again, will heal a wound like that. I hope there is not a 
wound like that. But if there is, it will be hard to fix.
    Mr. Johnson. Thank you.
    Ms. Sanchez. Does the gentleman yield back?
    Mr. Johnson. Yes, I yield back.
    Ms. Sanchez. I would like to recognize Mr. Cannon, very 
briefly, because we have just under 10 minutes to get across 
for our vote.
    Mr. Cannon?
    Mr. Cannon. Thank you, Madam Chair.
    I would just like to thank you for coming, Mr. Comey. I 
think you have put perfect balance on the importance of the 
Department of Justice, the effect of this inquiry on the morale 
of the Department of Justice, and the need to understand the 
issues--which, by the way, the gentleman has laid out very 
well. I appreciate those comments. That is where we ought to be 
going and deciding if those issues have been violated.
    And point out that, well, I don't think we have made any 
progress at all on identifying the White House's role in all 
this. I appreciate the directness and candor of your testimony, 
but it did not lead to where I think the majority was going on 
that.
    And what we have here is a consensus process of dealing 
with political appointees that happened over a significant 
period of time at a very senior level at the Department of 
Justice, and perhaps at the White House. And I suspect that, in 
the end, if there is a fair reporting of that, that is what the 
meaning of this hearing was.
    I would also hope that the press would pick up on not only 
your loyalty to the Department of Justice and your view of that 
as a very important institution in America, but also on the 
importance of what the department does and why it is important 
that we get beyond this inquiry.
    If there is wrongdoing, let's find it, let's find it 
quickly, and let's identify it. And the minority has been very 
supportive in the process of doing that.
    But if that is not the case, let's let people understand 
that we have great prosecutors in America who are not bent, who 
are not going to give Republicans or Democrats who are corrupt 
a break, and who will go forward and assure that our public 
institutions are institutions of integrity.
    I want to thank you for coming, Mr. Comey. I appreciate it 
very much.
    And yield back, Madam Chair.
    Ms. Sanchez. Thank you, Mr. Comey. I want to thank you for 
your testimony today. I think it has been very educational, 
understanding your evaluation of the U.S. attorneys and how 
that conflicts with the evidence on the list of those who were 
to be dismissed or to be retained.
    And I want to thank you for your service to this country at 
the Department of Justice. It is clear to me that you have 
earned the very stellar reputation that you have as being fair 
and just, and speaking up when you see things that need to be 
corrected.
    We are going to head across the street for votes.
    But, without objection, Members will have 5 legislative 
days to submit any additional written questions, which we will 
forward to the witness and ask that you answer as promptly as 
you can to be made a part of the record.
    Without objection, the record will remain open for 5 
legislative days for the submission of any additional 
materials.
    Again, I want to thank everyone for participating, for 
their time and their patience.
    And this hearing of the Subcommittee on Commercial and 
Administrative Law is adjourned.
    [Whereupon, at 11:10 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

        RESPONSE TO POST-HEARING QUESTIONS FROM JAMES B. COMEY, 
         FORMER DEPUTY ATTORNEY GENERAL, DEPARTMENT OF JUSTICE

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
